Effective 10/1/17

Cardholder Agreement

INTRODUCTION: In this document, the term “Agreement” means this Cardholder Agreement and the disclosures found in our “Important Cost Information about our Credit Card” insert that is included
with your card carrier when your Card plastic is sent to you. In this Agreement, we call this “Important Cost Information” insert our “Account Opening Disclosures.” The terms “we,” “us” and “our” refer
to UMB Bank, n.a., which is your credit card issuer. The terms “you” or “your” mean each person who applies for a credit card that is used primarily for personal, family or household purposes, either
as an applicant or a co-applicant, and to whom we issue a credit card pursuant to this Agreement. Those terms also apply to any person who has a current credit card Account with us that was issued
primarily for personal, family, or household purposes. Your liability under this Agreement is joint and several, which means that each of you is liable to us for the full balance of the Account and all lawful
interest, fees and charges, which may include any costs of collection, including our attorney’s fees.
1.YOUR PROMISE TO PAY: You are entering into this Agreement with us, under which we agree, subject to the terms and conditions of the Agreement, to lend you money through the use of your Card,
and you promise to pay back to us the money that we lend to you, plus any applicable interest charges and fees, in accordance with these terms and conditions. You borrow under this Agreement when
you use a Card, even if you do not sign a purchase slip or other document for the transaction. If you use your Card number without presenting your actual Card (such as for mail, telephone, or Internet
purchases), those transactions will be treated the same way as if you used the Card in person. If you let someone else use your Card, you are responsible for all transactions that person makes with your
Card. Your obligation to repay us is the responsibility of your estate if you die. If you use a Card, you will have accepted this Agreement and agree be bound by it.
2.OTHER IMPORTANT TERMS USED THROUGHOUT THIS AGREEMENT
“Account”

WHAT IT MEANS: Your credit card account with us.
YOUR RESPONSIBILITY: You promise to keep your Account in good standing, such as by making your payments on time, and to comply with the terms of this Agreement as long as your Account remains open or
has a balance.
OUR RESPONSIBILITY: We will give you access to your Account, up to the amount of your Credit Limit, through access devices, which may include Cards or your Account number. But we may change your Credit
Limit or close your Account as stated in this Agreement.
“Card”

WHAT IT MEANS: Any credit card associated with your Account, including all renewals and cards that we may issue to replace your current Card, for example, when you report your current Card as lost or stolen. The
term also means any other access device that we issue to you that may be used to access your Account to obtain credit, such as your Account number. The Card contains the name, logo or other identifying marks
of a merchant or other company with whom we have entered into an agreement to sponsor the Card.
YOUR RESPONSIBILITY: You agree (1) to use your Card only for lawful purposes, (2) not to engage in any illegal transaction with your Card, and (3) to return the Card to us or destroy it immediately upon our
request.
Please sign the reverse side of the Card as soon as you receive it. The Card is valid during the dates provided on the front. You agree to take reasonable steps to prevent the unauthorized use of your Card and Account.

OUR RESPONSIBILITY: If you keep your Account in good standing and comply with this Agreement, we will honor the Card as provided in this Agreement. The Card is and will remain our property.
“Advance”

WHAT IT MEANS: Any credit that we extend to you through your Account for the purchase of goods or services from any merchant whose name appears on the Card issued in connection with the Account. We do
not permit you to obtain Cash Advances or Balance Transfers through the Account.
YOUR RESPONSIBILITY: You agree to repay all Advances made on your Account, whether you request it or whether others who you have authorized request the Advance.
OUR RESPONSIBILITY: We will honor Advances up to your Credit Limit, subject to the terms set forth in this Agreement. Our obligation to make credit available to you under this Agreement is discretionary with us,
and we may cancel your right to obtain additional Advances at any time, even if you are not in default. We may decide not to make Advances that we believe may be fraudulent or for other reasons outlined in the
Agreement.
“Authorized User”

WHAT IT MEANS: Any person that you give the right to use your Card or your Account, but who is not obligated to repay us for use of the Account.
YOUR RESPONSIBILITY: You will be responsible for an Authorized User’s use of a Card and your Account, as well as anyone else the Authorized User allows to use the Card or Account. This will be true even if you did not
want, or agree to, the particular use. You will be responsible to repay all Advances made on your Account by any Authorized User. You may have a separate agreement with an Authorized User under which the Authorized User
agrees to repay you for use of your Card or Account.
OUR RESPONSIBILITY: You may ask us to add one or more Authorized Users and to issue an additional Card in that person’s name on your Account. If we agree to your request, we will need certain information about the
Authorized User to manage your Account. We may limit an Authorized User’s right to make certain transactions. If we do, we will tell you about those limitations before adding any new Authorized User on your Account. Once
we add an Authorized User to your Account, we may discuss your Account with that person and provide that person with Account information. You can cancel the right of an Authorized User to use your Account by contacting us
at the Customer Service number (800) 821-5184. We have a reasonable time to act on your request to end an Authorized User’s access to your Account.
Removing Authorized Users

YOUR RESPONSIBILITY: If you want to remove an Authorized User from your Account, you must contact us as provided on your Statement and request the removal of that person. You also must immediately
destroy all Cards in that person’s possession and cancel any of the automatic billing authorizations that person made to charge your Account by contacting those persons. We will not do this for you. Until those
arrangements are canceled, you are still responsible for all amounts they charge to the Account. You are responsible even if the charges do not appear on the Account Statement until later. Authorized Users may
remove themselves from the Account by contacting us.
OUR RESPONSIBILITY: We have a reasonable amount of time after we receive a request to remove an Authorized User from your Account to remove them. When we do that, we may close your existing Account
and/or issue a new Card with a new Account number.
“Credit Limit”

WHAT IT MEANS: The total amount of credit that we are willing to provide to you through your Account.
YOUR RESPONSIBILITY: You agree not to ask for or attempt to obtain any Advance that would cause you to exceed your Credit Limit. You are responsible for keeping track of your Account balance and your Available
Credit. We may still honor transactions above your Credit Limit, but our honoring of those transactions will not increase your Credit Limit.
OUR RESPONSIBILITY: We do not permit applicants to request a specific credit limit.
We tell you your initial Credit Limit in the Account Opening Disclosures that come with your Card. We will also show your Credit Limit on your monthly billing Statement.
We may also increase, decrease, restrict, or cancel your Available Credit at any time. This will not affect your obligation to repay us in accordance with the terms of this Agreement.
“Available Credit”

WHAT IT MEANS: That part of your Credit Limit that is available at any particular time for additional Advances.
YOUR RESPONSIBILITY: You may not make or attempt to make Advances that would exceed your Available Credit.
OUR RESPONSIBILITY: We disclose your Available Credit to you on your monthly billing Statement, but that amount may not reflect any Advances that you have asked for but that have not yet posted to your Account.
“Purchase Advance”

WHAT IT MEANS: An Advance for buying goods or paying for services from the merchant whose name appears on the Card issued in connection with the Account. All Advances made under this Agreement are
Purchase Advances. We also treat your annual fee (if your Account has an annual fee), and returned payment charges or documentation charges as Purchase Advances.
YOUR RESPONSIBILITY: You must repay Advances as required by this Agreement.

1

Interest will be charged on Advances at the “Annual Percentage Rate (APR) for Purchases” shown in your Account Opening Disclosures.
Promotional materials that we provide from time to time in connection with particular offers may state that a different interest rate or a promotional interest rate for a particular period of time will apply, in which case
the promotional materials that we provide with the offer will govern.

OUR RESPONSIBILITY: We will honor requests for Advances, assuming that you have Available Credit at the time that you request an Advance, subject to the other terms of this Agreement.
We post each Advance to your Account as of the transaction date.
“Statement”

WHAT IT MEANS: A detailed itemization of your Account for a monthly billing period. Your Statement includes information on your transactions, charges, your Balance, Minimum Payment and Payment Due Date. This Agreement
might also refer to your Statement as a “Periodic Statement” or a “Billing Statement.” Your Statement may be only in electronic form if you have given us consent to send Statements to you in that manner and you have not
revoked that consent by notice to us.
YOUR RESPONSIBILITY: You must review each Statement you receive and tell us about any errors or questions you have as described in the “Billing Rights Summary” part of your Statement and the Account Opening
Disclosures.
If you do not notify us within sixty (60) days of the date you receive the Statement as provided in those disclosures, we may assume that all information in the Statement is correct.

OUR RESPONSIBILITY: We will send you a Statement for your Account, unless the law does not require or permit us to send a Statement. Statements will be sent at the end of each monthly billing period when
your Account has a debit or credit balance of more than $1.00, or if we have charged any Interest or other charges to your Account. Your Statement will show all transactions billed to your Account during the billing
period, along with other important Account information.
If you have requested statements in electronic format only, we will send a notice of the availability of the Statement to the email address that you provided to us, and you will be considered to have received the
Statement when we so notify you. You must sign in to our Online Banking Service to review your Statement.
“Business Day”

WHAT IT MEANS: Means any day in which UMB offices are open for the processing of payments and credits. Our Business Days are Monday through Friday, but do not include holidays.
OUR RESPONSIBILITY: Some of the activities related to your Account, such as days that you can make payments at our branch offices, are determined by our Business Days.
3.FEES AND CHARGES
Late Payment Fee
How Can You Avoid This Fee? You can avoid this fee by paying at least the Minimum Payment Due shown on your monthly billing Statement by the Payment Due Date shown on the Statement.
How Much Is the Fee and When is the Fee Assessed? We will assess a late charge of $27 if you fail to pay the Minimum Payment Due shown on your monthly billing Statement by the Payment Due Date. The late charge
may be up to $38 if you do not make your Minimum Payment Due by its Payment Due Date more than once during a six month period. The late charge that we assess will never exceed your Minimum Payment. These fees
may be adjusted as allowed by law.
Returned Payment Fee
How Can You Avoid This Fee? You can avoid this fee by making sure that none of your payments to us on your Account are returned unpaid.
How Much Is the Fee and When is the Fee Assessed? We will charge a Returned Payment Fee if any payment that you make on your Account is returned to us unpaid or dishonored. We will assess a charge of $27
for the first returned payment. We will assess a charge of $38 for any payment that is returned within six months of a previous returned payment. These fees may be adjusted as allowed by law.
Annual Fee
How Can You Avoid This Fee? If you select an Account with us that has an Annual Fee, it will first be charged when your Account is opened. You can cancel your Account and avoid the fee for the first year and any
subsequent year by notifying us that you want to close your Account within thirty (30) days after the annual fee appears on your monthly billing Statement.
How Much Is the Fee and When is the Fee Assessed? The amount of the Annual Fee, if any, is disclosed in your Account Opening Disclosures. The fee is charged when your Account is opened and each year after
that.
Document Charge
How Can You Avoid This Fee? Keep all the monthly billing Statements, disclosures and notices that we send to you about your Account. This fee will not be charged for requests for documents in connection with a
written notice of a billing error, or when you ask for an additional copy of your Cardholder Agreement or Account Opening Disclosures. You can get a copy of your billing Statement by using our Online Banking Service.
How Much Is the Fee and When is the Fee Assessed? If you ask for a duplicate copy of your monthly billing Statement, a check you wrote on your Account or another document related to your Account, we may impose
a charge for sending you the copy, unless prohibited by law. The amount of the fee may change from time to time. You may call us at (800) 821-5184 for the current amount of the Document Charge.
4.INTEREST CHARGES
The information below explains how we calculate and charge interest on your Account.
Annual Percentage Rate: A monthly periodic interest rate, and a corresponding Annual Percentage Rate, is used to calculate any periodic interest rate charge on the Average Daily Balance of your Account. Each such
rate in effect during the billing period will be identified on the front of the last page of your Monthly Statement in the “Interest Calculation” section.
Grace Periods: Purchase Advances: Your Payment Due Date is shown on your Statement, and will be at least 25 days after the close of each billing period. You will not be charged a periodic interest charge on new
Purchase Advances if you pay your New Balance in full by the Payment Due Date shown on that Statement. If you do not pay the entire amount of the New Balance by the Payment Due Date, there will be an interest
charge assessed on each Purchase from the date the Purchase is made.
Monthly Interest Calculation: We calculate the monthly interest charge on your Account in the following manner:
First, we calculate the “Average Daily Balance” by doing the following:
We take the beginning balance each day during the monthly billing period and add any new Advances posted that day and subtract any payments that are applied for that day. This gives us the daily balance. We then
add up all the daily balances for each day included in the monthly billing Statement, and divide by the total number of days included in the monthly billing Statement. That gives us the Average Daily Balance.
Next, we divide the applicable Annual Percentage Rate by 365. This gives us the “Daily Interest Rate”. Finally, we multiply the applicable Daily Interest Rate by the Average Daily Balance. This gives us the interest
charge.
Minimum Interest Charge: A Minimum Interest Charge will be assessed to your Account for any billing period in which monthly interest is charged, but the calculated amount of the monthly interest is less than the
Minimum Interest Charge. When this occurs you will not be charged the calculated monthly interest charge, but will instead be charged the Minimum Interest Charge. The amount of the Minimum Interest Charge is
shown in the Account Opening Disclosures.
Military Lending Act: The Military Lending Act provides protections for certain members of the Armed Forces and their dependents (“Covered Borrowers”) for new credit card accounts opened on or after October 3, 2017.
The provisions of this section apply only to Covered Borrowers who open their Accounts after that date. If you would like more information about whether you are a Covered Borrower and whether this paragraph applies
to you, please contact us at (888) 615- 2179.
Statement of MAPR: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed
Forces and his or her dependents may not exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to the credit transaction or account: (1) the costs associated with credit insurance premiums; (2) fees
for ancillary products sold in connection with the credit transaction; (3) any application fee charged (other than certain application fees for specified credit transactions or accounts); and (4) any participation fee charged (other than
certain participation fees for a credit card account).
Oral Disclosures: If you are a Covered Borrower and want to hear important disclosures and payment information about your obligations under this Agreement, please call (888) 615- 2179.

2

5.PAYMENTS
The information below explains how we calculate your required payments, how you may make payments, and how we apply your payments to your Account balances.
Minimum Payment Calculation The Minimum Payment that we will show on your monthly billing Statement will equal:
(1) Any Minimum Payment from the previous monthly billing period that you did not pay, plus:
(2) The greater of:
a. $25.00, or
b. The amount of any Late Payment Fee or Returned Payment Fee charged on the monthly billing Statement, or
c. The sum of
i. one percent (1%) of the New Balance, plus
ii. total billed monthly interest charges, plus
iii. any Late Payment or Returned Payment Fees.
The Minimum Payment will never exceed your Account’s New Balance amount.
Sending Us Payments
Where: All payments that you make to us through the mail must be sent to us at the address for payments shown on your monthly billing Statement. The mailing address for payments is also shown below under “Other Customer
Service Information.” You can also make payments at our Online Banking website, at one of our branch offices or over the telephone to one of our Customer Service representatives.
When Payments Are Credited to your Account: Payments that we receive by 5:00 p.m. on any Business Day at the post office box address on your monthly billing Statement will be credited to your Account as of that
day. If the Payment Due Date falls on a non-Business Day, we will treat any payment received by us at that post office box address by 5:00 p.m. on the next Business Day as being received by us on the Payment Due
Date. Payments that do not meet the requirements of this “Sending Us Payments” section may be subject to a delay in crediting of up to five (5) days after the date of receipt.
When we receive a check in payment on your Account, we will credit the check as a payment to reduce the balance for purposes of calculating the interest you owe, but the full amount of your payment may not be
reflected in your Available Credit for up to ten (10) Business Days, to allow us to be sure that the check is collected.
How: All payments must be payable in U.S. dollars from an account at a U.S. financial institution and otherwise in a form acceptable to us. Payments made with a check drawn on a foreign bank will not be accepted.
We do not accept cash payments through the mail. You may not make payments with using the available credit from your Account or any other credit account with us or any other company within the UMB organization.
Payments made through the mail must include the payment slip that we send you as part of your monthly billing Statement.
Sending Us Checks; Notice of Electronic Presentment: When you provide a check as payment, you authorize us to either (1) process the payment as a check transaction or (2) use the information from your check to
make a one-time electronic fund transfer (“EFT”) from your deposit account. When we use information from your check for an EFT, funds may be withdrawn from your deposit account as soon as the same day we receive
your payment. If your check is converted into an electronic image it will be collected and returned electronically.
Availability of Credit After Payment: We may, at our discretion, delay the availability of credit when you make a payment until we reasonably believe that your payment has cleared. We do not provide you with a notice if we delay
replenishing your Available Credit to ensure the collectability of your payment. If we replenish your Credit Limit before a payment has cleared and a payment is returned to us unpaid, it will reduce your Available Credit, and may result in
your Account being in an over-the-credit-limit status.
Payments Marked with Restrictive Words, Conditions or Instructions: Any check or other payment that has restrictive words, conditions, limitations, or special instructions added (including payments marked with the
words “Paid in Full” or similar language) and all accompanying communications must be mailed to and received at P.O. Box 419734, Kansas City, Missouri 64141-6734, and include the phrase “Attn: Payment of Disputed
Amount” or words of similar effect in the heading of your letter. If you make your payment or send any accompanying communications to any other address, we may accept and process the payment without losing any of our
rights. We may deposit any such payment without that deposit effecting an accord and satisfaction with respect to the disputed amount.
Other Payment Provisions: We can accept partial payments, late payments or payments with any restrictive writing without losing our rights under this Agreement. You should not send us a postdated check to make a payment. If you
do so, we may decide to present the check for payment before the date that you wrote on the check, or return it without processing it for payment to the person who sent it. We are not liable to you for any loss or expense arising from the
action we decide to take in those circumstances.
We may adjust your Account as necessary to correct errors, to process returned and reversed payments, and to handle similar issues.
How Payments Are Applied
Minimum Payment: If applicable, your Statement will show the Minimum Payment Due and the Due Date. To avoid a late payment fee, you must pay us at least this minimum payment amount by the due date provided
in the Statement. In addition to the minimum payment, you may pay all or part of the total balance on your Account. You must still pay at least the minimum payment amount each month, even if you paid greater than
the minimum on the previous Statement. The entire balance is immediately due and payable if your Account is 180 days past due, part of a bankruptcy proceeding or is otherwise charged off.
We may apply your Minimum Payment to your Account in any manner that we choose, including in a way that is most favorable to us. However, all payments are applied in accordance with applicable law.
Amounts in Excess of Minimum Payment: If your Account has different Annual Percentage Rates that apply, such as when you have taken advantage of a promotional offer we made, and you make a payment that exceeds
your Minimum Payment, we will generally apply the excess amount to your Account balances in order of the highest Annual Percentage Rate to the lowest Annual Percentage Rate.
Prepayment
You may pay all or any part of your outstanding Account balance at any time. Payment of more than the Minimum Payment Due in one billing period (but less than the outstanding balance) will not relieve you of
the obligation to pay the entire Minimum Payment Due in any later billing period.
6.DEFAULT
The information below explains how you can avoid defaulting and what may happen if you do default.
Actions That Trigger a Default: To the extent permitted by applicable law, your Account will be in default if:
(a) You fail to make any required Minimum Payment by the corresponding Payment Due Date;
(b) Any payment you make is returned, not paid or cannot be processed and as a result, the required Minimum Payment is not made;
(c) Your balance at any time exceeds your Credit Limit;
(d) You (or any of you) fail to comply with any term of this Agreement;
(e) You (or any of you) die or become legally incompetent;
(f) You (or any of you) become insolvent or bankrupt;
(g) You (or any of you) give us false or misleading information or an unauthorized signature at any time;
(h) You (or any of you) fail to make any payment or perform any promise in any other agreement with us or on another obligation you owe us; or
(i) Any judgment, lien, attachment or execution is issued against you or any of your property.
Potential Results of Triggering a Default: If you are in default, we may take the following actions without notifying you, unless the law says that we must notify you:
(a) Revoke your Account privileges temporarily or permanently and close your Account;
(b) Lower your Credit Limits;
(c) Declare your full Account balance to be immediately due and payable, subject to any notice and cure rights required by applicable law;
(d) Exercise any right or remedy under this Agreement and applicable law;
(e) Continue to charge you interest charges and fees as long as your balances remain outstanding, subject to our compliance with applicable law; and

3

(f) Charge you fees and expenses incurred when we try to collect on your Account, including, subject to applicable law, attorneys’ fee and court costs. If you are a resident of Nebraska, Iowa or any other state that
prohibits contracting for or charging attorneys’ fees when you default, we will not charge you attorneys’ fees.
7. OTHER IMPORTANT INFORMATION AND TERMS
The section below contains additional important information and terms about how we can change the terms of this Agreement, and your rights under certain circumstances to reject the changes that we announce.
Changes to this Agreement
Summary: We have the right to make changes to this Agreement. We will notify you of these changes as we are required to and in the time frame prescribed by law.
Additional Details: Subject to applicable law, including the Truth in Lending Act and Regulation Z: (i) you agree that we may, in our sole discretion, from time to time change any of the terms and conditions of or add new
terms and conditions to this Agreement, including changing the way that we compute interest charges, increasing or adding fees, or changing your Minimum Payment Due; (ii) any such changes will generally be effective
immediately unless we are required by applicable law or elect, in our discretion, to provide you with advance written notice of the changes (and/or the reasons for the changes), afford you the right to reject the change and/
or obtain your consent to the change (whether by written agreement, through obtaining an Advance after a specified date or through some other means). In those instances, those changes will be effective if, when and as
stated in the notice that we send you; (iii) any changes may apply to your outstanding balance on the effective date of the change and to any future balances created after that date; and (iv) no change to any term of this
Agreement will excuse your obligation to pay all amounts owing under this Agreement.
Change of Address
Summary: If your name or address changes, please notify us of the change by writing to us on a separate sheet at Card Services, P.O. Box 419734, Kansas City, Missouri 64141-6734.
Additional Details: We need information about you to manage your Account. The information we need includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address (if different);
(3) your date of birth;
(4) your Social Security Number or other government identification number;
(5) your telephone number(s); and
(6) the amount of income that is available to you and the source of that income.
You must tell us when this information changes. Please update your address in the manner provided on your Statement. You may also update some of this information by logging onto your Account on our Online
Banking website, or by calling one of our representatives at the telephone number provided on your Statement or on the back of your Card. We may require you to provide additional documents that are acceptable
to us to verify this information or any changes. We have the right to restrict or close your Account if we cannot verify your information or if you do not give us additional information as we requested.
Monitoring/Recording of Telephone Calls
Summary: We, and other parties we designate, can monitor and record our telephone conversations with you regarding your Account.
Additional Details: You consent to and authorize us, any of our affiliates, or any third party we designate to monitor and/or record any of your telephone conversations with our representatives or the representatives
of any of those companies regarding your Account.
Reporting Information to Credit Bureaus and other entities; Identity Theft
Summary: We will report information about your Account to credit bureaus and obtain and use credit and income information about you from consumer (credit) reporting agencies and others as the law allows. If you
ever discover what you believe to be an inaccuracy in the information that we report to credit bureaus, you must notify us. Use the address provided under the heading “Other Customer Service Information” to send
us a notice that you believe we have reported information inaccurately about your Account.
Your Card is issued as part of a co-brand relationship between us and the company shown on the Card. A co-brand Card provides you with services or benefits from both UMB Bank and that company, and you agree
that information concerning your Card and Account may be shared between us and that company from time to time.
Additional Details: We may report information about your Account to other creditors, other financial institutions and credit bureaus. Late payments, missed payments or other defaults on your Account may be reflected
in your credit report. Information we provide might appear on your and the Authorized Users’ credit reports. This could include negative information if you do not comply with the terms of this Agreement. You have the right
to dispute the accuracy of information we have reported. If you believe that any information about your Account that we have reported to a credit bureau is inaccurate, or if you believe that you have been the victim of identity
theft in connection with your Account or in connection with any other loan or extension of credit made by us, write us at the address given under the paragraph titled “Other Customer Service Information” below. Please include
the heading “Attn: Fraud/Dispute” when you address your envelope, and please include your name, address, Account number, telephone number and a brief description of the problem. If available, please include a copy of the
credit report in question. If you believe that you have been the victim of identity theft, you should send us a police report or written statement in a form we provide you alleging that you are the victim of identity theft for a specific
debt. Once we receive such documentation, we will cease all debt collection activity until we have reviewed the materials, determined that the debt is still collectible, complied with all obligations under federal law and sent you a
written notice describing the basis for our determination.
Liability
Summary: We are generally not liable for any injuries, accidents, losses, claims, expenses, inconveniences, costs or damages you sustain as a result of our failure to honor your Card.
Additional Details: We have no responsibility if anyone fails to honor your Card for any reason or for any retention of your Card by any machine, merchant, financial institution or any other person. We have no responsibility for
any merchandise purchased or services rendered to you through the use of your Card, except for liability that is specifically imposed on us by law. Subject to the rights granted to you by any applicable law, including the Fair Credit
Billing Act, you agree we are not responsible for any claim you might have regarding the purchases of goods or services made with your Card and you agree to assert only against the seller of the merchandise or services, and
not against us, all defenses, rights and claims which you may have relating to goods or services purchased through the use of your Card.
Bankruptcy Notification
Summary: You must inform us if you declare bankruptcy.
Additional Details: All bankruptcy notices and related correspondence to us must be sent to us at the address for payments under the paragraph titled “Other Customer Service Information” below. Please include
the heading “Attn: Bankruptcy Notice” when you address your envelope.
Governing Law
Summary: This Agreement is governed by Missouri and federal law and, with respect to fees and charges other than interest, by Nebraska law.
Additional Details: This Agreement, your Card, your Account and all transactions hereunder are governed by Missouri and federal law. The fees and charges that apply to your Account (other than the amount of the
monthly interest that is calculated by applying an interest rate to an Average Daily Balance) will be governed by Nebraska law, as authorized by Missouri Revised Statutes Section 408.145. The applicable statute of
limitations period for all provisions and purposes under this Agreement (including the right to collect debt) will be the longer period provided by Missouri or the jurisdiction where you live.
Severability
Summary: The Agreement remains valid even if any provision is unenforceable.
Additional Details: If any provision of this Agreement is found to be invalid or unenforceable under any law, rule or regulation, that does not affect the validity or enforceability of any other provision of this Agreement.
Assignment
Summary: We may sell, assign or transfer this Account, Account balance, or any of our rights or obligations under this Agreement, without notice to you or your consent, but you may not do so.
Additional Details: You may not sell, assign or transfer your Account or any of your rights and obligations under this Agreement. However, we may sell, assign or transfer your Account, or any balance due thereunder, and/
or any of our rights and obligations under this Agreement, to a third party without prior notice to or consent by you. Should we do so, then to the extent of any such sale, assignment or transfer, that third party will take our
place in this Agreement. You must pay them and perform all of your obligations to them and not us. If you pay us after you are informed or learn that we have transferred your Account or this Agreement, we can handle
your payment in any way we think is reasonable. This includes returning the payment to you or forwarding the payment to the other company or person.

4

Closing Your Account
Summary: We may close or suspend your Account and your right to obtain credit from us. We may do this at any time and for any reason, permitted by law, even if you are not in default. A suspension of your Account might be
permanent or temporary.
Additional Details: We reserve the right to close your Account and permit no further Advances to be made on the Account at any time, for any reason or no reason, without prior notice to or consent by you.
You may ask us to close your Account by calling or writing us as described on your Statement. If you use your Card or charges post to your Account after you ask us to close it, we may keep it open or reopen it.
If your Account is closed or suspended for any reason, you must stop using your Card. You must also cancel all billing arrangements that use the Account to make a payment. We will not do this for you. If we close or permanently
suspend your Account, you must also destroy all Cards. You must still pay us all amounts you owe on the Account, even if they are charged after your Account is closed or suspended.
Lost or Stolen Cards; Unauthorized Use
Summary: If you notice the loss or theft of your credit card or a possible unauthorized use of your Card, write to us immediately at: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734, or call (800)
821- 5184. Telephoning us will not preserve your Billing Error Rights.
Additional Details: You will not be liable for any unauthorized use that occurs after you notify us. If your Account was opened primarily for personal, family or household purposes, or if you are an employee of a business and your
Card was issued in connection with that business and related activities, you will not be liable for any unauthorized use that occurs before your notice to us. If those exceptions do not apply, your liability for unauthorized use that occurs
before you notify us will not exceed $50.
In general, when the Card is used for a transaction (other than a transaction on a commercial card), you have no liability. You must promptly report the claim to us, and you must not have acted grossly negligently or fraudulently
in handling your Card.
If we reimburse your Account for unauthorized charges made using your Card, you agree to help us investigate, pursue, and get reimbursement from the wrongdoer. Your help includes giving us documents that we
ask for and that are acceptable to us.
Other Customer Service Information
Summary: For billing errors or disputes: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734
To make a payment: Card Services, P.O. Box 291736, Kansas City, MO 64121-9736
To reach our Customer Service representatives: (800) 821-5184 or from the Kansas City area (816) 843-2000
Online banking website address: www.StatementLookDirect.com
Additional Details: If you want to send us notices of billing disputes, or mail us payments, or reach our Customer Service representatives by phone, please use the information provided above.
We will consider a notice to be effective when we receive and have had a reasonable opportunity to act on such notice. Any written or electronic correspondence we send to you will be effective and deemed delivered
when sent in accordance with any authorization for electronic communications you have agreed to, or when mailed to you at your mail address as it appears on our records.
No Security Interest
Summary: This credit is not secured by any collateral.
Additional Details: The credit extended under this Agreement is not secured by any collateral, even if other agreements which you may have executed would otherwise secure it. We waive, but only with respect to
indebtedness arising under this Agreement, any security interest which may otherwise secure such indebtedness.
Force Majeure
Summary: When circumstances are beyond our control.
Additional Details: From time to time, due to circumstances beyond our control (such as system failures, fires, floods, natural disasters, or other unpredictable events), our services might be unavailable. When this happens, you might
be unable to use your Card or obtain information about your Account. We will not be responsible or liable if that happens.
Merchant Refunds
Summary: When you receive a refund from a Merchant.
Additional Details: If you are entitled to a refund for goods or services purchased with your Card, you will accept these refunds as credits to your Account. We do not control when a merchant sends us your refund.
We will also have a reasonable amount of time after we receive your refund to process it.
Credit Balances
Summary: When you have a credit balance on your Account.
Additional Details: We may reject and return to you any payment that creates a credit balance on your Account. Any credit balance we allow will not be available until we confirm that your payment has cleared. We
may reduce the amount of any credit balance by any new amounts billed to your Account. You may contact us as provided on your Statement and request a refund of any available credit balance. If you contact us in
writing, we will refund your credit balance within 7 Business Days from our receipt of your written request.
8. YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FURTHER USE: This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find a Mistake On Your Statement. If you think there is an error on your Statement, write to us at: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734.
When you write us, please give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your Statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us at (800) 821-5184, or from the Kansas City area, call (816) 843-2000, but if you do, we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter. When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your Statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.

5

After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a Statement of the amount you owe and the date the payment is due.
We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you will refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us. If we do not follow all of
the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if your
purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services).
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the above criteria are met and you are still dissatisfied with the purchase, contact us in writing at: Card Services, P.O. Box 419734, Kansas City, MO 64141-6734.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an amount and do not pay, we may
report you as delinquent.

6

